No.

20-7123
IN THE

SUPREME COURT OF THE UNITED STATES
KENNETH REX HEDDLESTEN-PETITIONFR
vs.
SCOTT CROW. DIRECTOR-RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

RIG1NAL
KENNETH REX HEDDLESTEN
LAWTON CORRECTIONAL FACILITY
8607 S.E. FLOWER MOUND RD.
LAWTON, OK 73501
PHONE NUMBER NOT AVAILABLE

Supreme Court, U.S.
FILED

NOV 0 5 2020
OFFICE OF THE CLERK

QUESTION(S) PRESENTED
In my Combined Opening Brief and Application for a Certificate of Appealabilty to the
United States Circuit Court of Appeals-Tenth Circuit I raised three issues that are relevant
facts of the case based on the Report and Recommendation and Order from the US District
Court-Western District of Oklahoma dismissing my Petition for Writ of Habeas Corpus as
untimely. From those issues my questions for the Honorable Supreme Court Justices arise.
1. When was my conviction final?
2. When did the limitations period under 28 U.S.C. 2244(d)(1)(D) actually start?
3. Did the Caddo County District Court have jurisdiction to decide and render judgment
in my case? I acknowledge that this question in and of itself is not directly related to
the Districts Courts ruling that “No reasonable jurist could conclude the district courts
procedural ruling was in correct.” However, I am under the impression that Jurisdiction
is one issue that is never waived and can be addressed at any time. If that is incorrect
I hope the Honorable Justices will remember that I am a layperson not formally
educated or trained in the practice of law and request that my Petition be considered
under the protection of Havnes v Kerner. 92 S. Ct. 594. M972V In filing this petition I
established three rules for myself to follow: first, be honest and don’t claim anything
that isn’t true; second, don’t pretend to be anything I am not; and third (KISS) keep it
simple stupid, a reminder to myself that I am not a lawyer.

•»

n

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
TABLE OF CONTENTS
OPINIONS BELOW.

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE..........................................................

2

REASONS FOR GRANTING THE WRIT..........................

.7

CONCLUSION

8

INDEX TO APPENDICES
APPENDIX A The United States Court of Appeals- Tenth Circuit
APPENDIX B The United States District Court- Western District of Oklahoma
APPENDIX C The Report and Recommendation of the Western District Magistrate Judge.
TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

i

HARRIS v NELSEN, 394 US 286, 22 L.Ed 2d 281, 895 S.Ct. 1082 (1969)

<*

HAYNES v. KERNER. 92 S. Ct. 594, (1972).

l»

MILLER-EI v COCKRELL 537 US 322 (2003)

M

MURRAY v CARRIER, 477 US 478, 91 L.Ed 2d 397, 1065 S.Ct. 2639 (1986)

2,3

REED v RQSS, 468 US 1, 82 L.Ed. 2D 1, 104 S.Ct. 2901 (1984)
SLACK v MCDANIEL, 529 US 473, 146 L.Ed 2d, 120 S.Ct. 1595, (2000)

X

STATUTES AND RULES
28 U.S.C. 2244 (d)(1)(A); 28 U.S.C. 2244 (d)(1)(D); 28 U.S.C. 2243; 28 U.S.C. 2254
iit

h

OTHER

P

Blacks ‘s Law Dictionary.
Websters New World Dictionary, Fourth Edition.
Guide For Prospective Indigent Petitioners for Writs of Certiorari.

H
H
1

Sheldon Cooper, The Big Bang Theory, CBS, 2007-2019.
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X ] For cases from federal courts:
The opinion of the Unites States Court of Appeals appears at Appendix Ato the petition
and is
[jreported at
or,
[j has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States District Court appears at Appendix B to the petition
and is
[] reported at
_____ ! or,
[] has been designated for publication but is not yet reported; or,
[X] is unpublished.
JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was August
24. 2020.
[X] No petition for rehearing was timely filed in my case.
The jurisdiction of this Court is invoked under 28 U.S.C.f1254(1)
1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
THE SIXTH AMENDMENT TO THE UNITED STATES CONSTITUTION
THE FOURTEENTH AMENDMENT TO THE UNITED STATES CONSTITUTION
STATEMENT OF THE CASE
On May 12, 2020 Petitioner filed a Petition under 28 U.S.C.^2254, for a Writ of Habeas
Corpus documenting six grounds that indicated a “substantial showing of the denial of a
constitutional right.” Miller-El v Cockrell. 537 U S. 32? 836 (2003Y On May 29th 2020, the
Honorable Magistrate Judge Gary Purcell filed a Report and Recommendation in which he
recommended the Petition be dismissed as untimely. On June 16, 2020 Petitioner filed an
Objection to the Report and Recommendation focusing on the failure of Petitioner’s Appellate
Counsel to “advance any of the grounds presented in Caddo County District Court on March
10, 2010 at Petitioner’s” hearing on an Application to Withdraw his Plea. On June 19, 2020
the Honorable District Judge David L. Russell issued an order and judgment adopting the
Report and Recommendation’s conclusion that “The Court finds reasonable jurists would not
debate the Court’s determination (1) that the habeas petition is time barred under 2244(d)(1)
(A) and (2) petitioner is not entitled to tolling of the statute of limitations period. “The Court
therefore declines to issue a Certificate of Appealability.”

The Western District failed to

address the Petioner’s argument that his conviction under Murray v Carrier was not final on
direct appeal on April 11,2011.
On June 29, 2020 the Petitioner filed a Notice of Intent to Appeal to the Tenth Circuit. On
August 24, 2020 the Honorable Circuit Judges Briscoe, Baldock, and Carson issued an order
denying Certificate of Appealability concluding that under Slack v McDaniel (2) “No jurist of
reason would find it debatable whether the district court was correct in its procedural ruling.”
While the Honorable Justices of the Tenth Circuit addressed the arguments presented in the
District Courts Report and Recommendation and Order. The Honorable Justices failed to
2

address the Petitioners arguments that his conviction was not final under 2244(d)(1)(A), but
under 2244(d)(1)(D) it was final on June 28, 2019, when the final constitutional violation
raised in March 2010 was adjudicated by the states highest court. It is from that order that this
Petition for Writ of Certiorari is requested.
From this point forward, I, Kenneth Rex Heddlesten, as the Petitioner will refer to myself in
the first person, not the third. It is far easier for me to write from the first person than just
identifying myself as Petitioner.

I sincerely hope in my ignorance I am not violating any

standards of decorum by asking permission to dispense with “legalese” and just write things
as if it were a story. I am uneducated and untrained in the practice of law and do not want to
pretend to be. It is with the utmost respect for the Honorable Justices of the Supreme Court
that I submit this Petition for Writ of Certiorari in order to address the three questions
previously stated. In filing this petition I established three rules for myself to follow. First, be
honest and don’t claim anything that isn’t true. Second,
First. The District Court incorrectly determined the date of my convictions as April 11,
2011. The District Court applied 28 U.S.C. 2244(d)(1)(A) “the date on which the judgment
became final by the conclusion of direct review or the expiration of the time for seeking such
review” and arrived at Monday April 11, 2011. While that determination would have been
correct in any other direct review, I argued that it was not under MURRAY v CARRIER. 477
U.S. 478, 91 L Ed 2d 397, 106 S Ct. 2639. “failure to raise a claim on appeal reduces the
finality of appellate proceedings, deprives the appellate court of an opportunity to review trial
error, and under cuts the state’s ability to enforce its procedural rules. As with procedural
defaults at trial these costs are imposed on the state regardless of the kind of attorney error
that led to the procedural default.” The failure of Oklahoma Indigent Defense System
Attorney Robert Jackson to raise my claims to withdraw my plea in Caddo County District
Court on March 10, 2010, prejudiced my from having my constitutional claims adjudicated by
3

the Oklahoma Court of Criminal Appeals (OCCA). That error also prejudiced the State of
Oklahoma from the opportunity to review trial error. Under that condition 28 U.S.C. 2244(d)
(1)(A) would not apply to this case. If not that then when did my convictions become final.
This brings us to the next question.
Second. Was the ex-post facto plain error presented as Ground 4 in my Petition for Writ
of Habeas Corpus a factual predicate under 28 U.S.C. 2244(d)(1)(D) before June 28, 2019.
Under that statutory rule “The AEDPA of 1996 as contained in 2244 U.S.C. 2244(d) provides
in part that: (1) A one year period of limitation shall apply to an application for a Writ of
Habeas Corpus by a person in custody pursuant to the judgment of the State Court. The
limitation period shall run from the latest of- (D) the date on which the factual predicate of the
claim or claims presented could have been discovered through the exercise of due diligence.
It is my contention that the factual predicate of my claims did not become discovered through
due diligence until June 28, 2019. It seems apparent on Page 14 #18 of my Petition for
Habeas Corpus that U.S.C. 2244(d)(1)(D) is the pertinent statutory rule to address the
timeliness. Furthermore, as I researched what a factual predicate is both legally and logically,
I found some interesting facts about it. According to Black’s Law Dictionary the closest
definition available was for the term predicate fact- a fact from which a presumption or
inference arises. For further clarification, I sought guidance from a Webster’s New World
College Dictionary, Fourth Edition, and was unable to find a definition for “factual predicate”.
However, when separated the meaning becomes clearer:
factual (1) of or containing facts (2) having the nature of fact; real; actual,
predicate (2) Logic- something that is affirmed or denied about the subject of a
proposition.
When reviewing these definitions it is a fact that a fact is a fact and not a theory. Bazinga!
Sheldon Cooper. The Big Bang Theory, CBS, 2007-2019. I mean no disrespect to this
4

Honorable Court, it is just that I have found humor to be a most useful tool in helping me deal
with the situation I put myself in. So, under the meaning of predicate as above I assert that a
predicate is something related to a proposition that has been affirmed or denied. Under this
definition it is not possible to have a factual predicate based on a theory. In logical writing
when we develop a Proposition of Error, the predicate underlying that proposition does not
become a fact until it is affirmed or denied. Therefore until that proposition of error is decided
one way or the other it is still just a theory and not a fact.
Now provided that 2244...(D) is the correct statutory rule, I believe that June 28, 2019 is
the date on which the factual predicate(s) underlying my claims triggered the one year time
limitation. On question #2 lets analyze my claim that my sentence is in violation of ex-post
facto laws. My paid attorney Debra Hampton first raised this as a proposition of error under a
Sixth Amendment claim of ineffective assistance of appellate counsel, subsection B. The only
reference available prior to the filing of that Application for Post Conviction Relief is found in
my original grounds for withdrawing my plea presented in Caddo County District Court on
March 10, 2010. It was presented as a theory related to my plea being unknowingly entered
because of the change in the statutes used to prosecute me. While these references to the
change in the statute could be subjectively interpreted as a factual predicate, I argue that
because the error was not clearly identified as an ex-post facto violation it could not have
been a factual predicate under 2244(d)(1)(D) until it was presented as a theory on May 12,
2018 and decided on June 28, 2019.1 have researched numerous circuit court rulings that
indicate that a factual predicate is not left to subjective interpretation and have actually
provided conflicting rulings on what and when factual predicates could have been discovered.
If I’m allowed to proceed further, I will provide each of the cases I have reviewed and a more
in-depth analysis, otherwise this Petition could become way to wordy and I want to keep it
5

simple. One of my rules for filing legal paperwork is keep it simple stupid, “Bazinga”. That is
just to remind me that I am not a legal scholar and shouldn’t try to be.
Three. If we agree that the claims contained in my Petition for Writ of Habeas Corpus
triggered the one year limitations period on June 28, 2019, then we can address whether or
not the Caddo County District Court had jurisdiction to decide and render judgment in my
case to begin with. Even if one determines that the Court had in personam jurisdiction
because I resided in Caddo County, how do we resolve the issue that I was an intricate part of
the Caddo County Drug Court Team and worked closely with the Judges and District
Attorney’s on a weekly basis. No one ever told me I could ask for a special prosecutor. While
my attorney and I did discuss Judge Van Dyck presiding over the District proceedings, I was
given the impression that if I asked for him to recuse I would probably end up with a judge
that would not know me and therefore worse off. I admit I put myself in this position and I am
responsible for the actions that put me in this situation. No one is to blame but me, but does
two wrongs make a right. Had the Caddo County DA immediately requested a special
prosecutor and had the Caddo County Judges sua sponte recused I am 100% sure the
outcome of my case would have been different. Had my attorney Jason Glidewell known
what needed to be done on the question of jurisdiction and had my appellate attorney Robert
Jackson known how to address the jurisdiction the Oklahoma Court of Criminal Appeals
would have been required to remand the case and require a complete change of venue. That
would not have prejudiced me in getting my claims adjudicated in a timely manner nor would
it have prejudiced the State of Oklahoma from being able to review trial error at a time when
those issues could have been resolved. Unfortunately the legality of my conviction remains in
question. As Justice Stevens opined in Murray v Carrier US @ fsnn

“The Writ of Habeas

Corpus is the fundamental instrument for safe guarding individual freedom against arbitrary
and lawless state action” Harris v Nelson. 394 US 286. 290-291: 22 L.Ed 2d 281. 89 S.Ct.
6

1082 (1969). In 1867, Congress provided the Writ of Habeas Corpus for state prisoners, the
Act gave federal courts “power to grant writs of Habeas Corpus in all cases where any person
my be restrained of his or her liberty in violation of the Constitution, or any treaty or law of the
United States” The Court... shall dispose of the matter as law and justice require. 28 U.S.C.
2243.
REASONS FOR GRANTING THE PETITION
The Guide for Prospective Indigent Petitioners for Writs of Certiorari I have received in
Section XIII states “It is important to Read and Rule 10 and address what compelling reasons
exist for the exercise of the Courts discretionary jurisdiction.” As one who has been diligent in
following the instructions I have been given, to the best of my understanding, I admit that I
am having difficulty with figuring out Rule 10 is actually asking from me. While I have a B.S in
Psychology and an M.S. in Applied Clinical Psychology, I did not attempt to obtain a Ph. D
because I didn’t feel it was necessary to pile it higher and deeper to help people. “Bazinga”.
No offense meant to those who have a Ph. D. It is more likely that even if I had a Ph. D. I
would still have difficulty with Sections A, B, and C, of Rule 10. I will, however, attempt to
provide logical reasons for the Court to “exercise their discretionary jurisdiction.” based on my
understanding of Section XII of the The Guide for Prospective Indigent Petitioners for Writs of
Certiorari. “Try to show not only why the decision of the lower court may be erroneous, but
the national importance of having the Supreme Court decide the question(s) involved.”
In regard to question 1 about the date of finality of one’s convictions. As I had both a paid
attorney to handle my plea withdrawal hearing and a court appointed attorney on my appeal; I
expected them both to know and present the most compelling legal reasons why my
convictions were unconstitutional. The fact that neither questioned the jurisdiction of the
Caddo County District Court in deciding and rendering judgment made it impossible for my
case to receive “final” adjudication in the State’s highest Court. In REED v ROSS. 468 US 1,
7

82 L.Ed. 2D 1, 104 S.Ct. 2901 (1984), “any procedural default on appeal renders the
Petitioner’s convictions to remain in question until all constitutional issues related to that
conviction are addressed by the state’s higherst court. With that in mind I believe it is
important for the United States Supreme Court to reinforce its role in ensuring that every
defendant, rich or poor, is afforded effective assistance of counsel, both at trial and on appeal,
under the Sixth Amendment. Only the Honorable Justices of the Supreme Court can debate
that issue. I have done the best I can at presenting what I believe are sound and fairly
reasoned questions of law to be answered. I’m not sure where those questions fall in regards
to Rule 10, sections A, B, and C. However I do believe the Supreme Courts opinion(s) in
Murray v Carrier and Reed v Ross are clear about the results of ineffective assistance of
counsel on appeal. As for Miller-El v Cockrell. I respectfully submit that the Honorable
Justices of the United States Supreme Court are “jurists of reason” and “could debate
whether the Petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further.”
CONCLUSION
Over the past 10 years I have followed this piece of advice or that piece of advice from
others and it seems that has been fruitless. I’m tired of listening to others about filing
paperwork that is “legal” and proper so that I meet some unknown standards in order to have
my claims reviewed on the merits. Instead, I have only been blocked because I failed to
understand and follow the 1 year statute of limitations under 28 U.S.C. 2244(d)(1)(A). I
believed that my claims had merit, but until I was able to exhaust every claim, including the
ex-post facto violation, I could not by law proceed to federal court. Once that claim was
exhausted by the state’s highest court, I file my Habias Petition, in spite of being locked down
for about 5 months from August 2019 to Jan 2020. That is the reality of life in prison at
Lawton Correctional Facility.

8

My father taught me that to be honest and accept responsibility for my actions was more
important than whatever consequences I would experience from doing so. I will follow my
father’s advice. It seems the only way to get relief from an illegally obtained conviction after
the AEDPA limit has expired is to claim “actual innocence”. I cannot do that because I
admitted to what had actually occurred and had hoped to receive a fair and impartial
adjudication by the Caddo County prosecutors and judges that I had worked closely with
since October 3, 2005. I have no animosity for how things turned out, as I believe in their own
way, the prosecutors and judges intentions were to follow the law and show that even though
I was a member of the Caddo County Drug Court Team that would not influence the manner
in which I was adjudicated. It is unfortunate for me that on April 7, 2009, by paid attorney,
Jason Glidewell, told me “They want to make an example of you.” At that point he seemed to
give up on challenging any of the aspects of the state’s case that were later discovered to be
an improper and unconstitutional adjudication. When Oklahoma Indigent Defense System
attorney, Robert Jackson, failed to investigate and present those aspects to the Oklahoma
Court of Clinical Appeals, that denied me fundamental fairness on appeal. All I hope is that
this Honorable Court will review my case on the merits and ensure that all those who trust
their attorney’s to effectively and vigorously protect their client’s right to fundamental fairness
and due process under the U.S. Constitution. In addition I would like the State of Oklahoma
to be able address my claims on the merits, after all it would only be fundamentally fair.
The petition for writ of certiorari should be granted.
Respectfully submitted,

Kenneth Rex Heddlesten
Petitioner Pro Se
Date:
9

